<html>
<title> - HEARING ON H.R. 2098 AND H.R. 2989</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                   HEARING ON H.R. 2098 AND H.R. 2989

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 2098

  TO ESTABLISH THE NATIONAL CAVE AND KARST RESEARCH INSTITUTE IN THE 
STATE OF NEW MEXICO, AND FOR OTHER PURPOSES. ``NATIONAL CAVE AND KARST 
                    RESEARCH INSTITUTE ACT OF 1997''

                               H.R. 2989

  TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY TO THE ST. JUDE'S 
   RANCH FOR CHILDREN, NEVADA, APPROXIMATELY 40 ACRES OF LAND IN LAS 
  VEGAS, NEVADA, TO BE USED FOR THE DEVELOPMENT OF FACILITIES FOR THE 
          RESIDENTIAL CARE AND TREATMENT OF ADJUDICATED GIRLS

                               __________

                    FEBRUARY 5, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-59

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-853 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         DALE E. KILDEE, Michigan
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CARLOS A. ROMERO-BARCELO, Puerto 
GEORGE P. RADANOVICH, California         Rico
WALTER B. JONES, Jr., North          MAURICE D. HINCHEY, New York
    Carolina                         ROBERT A. UNDERWOOD, Guam
JOHN B. SHADEGG, Arizona             PATRICK J. KENNEDY, Rhode Island
JOHN E. ENSIGN, Nevada               WILLIAM D. DELAHUNT, Massachusetts
ROBERT F. SMITH, Oregon              DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                      Tod Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 5, 1998....................................     1

Statements of Members:
    Bingaman, Hon. Jeff, a Senator in Congress from the State of 
      New Mexico.................................................     6
        Prepared statement of....................................     6
    Ensign, Hon. John, A Representative in Congress from the 
      State of Nevada............................................    10
        Prepared statement of....................................    11
        Letter submitted by Mr. Ensign...........................    49
    Faleomavaega, Hon. Eni F.H., a Delegate from American Samoa..     1
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    11
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah, prepared statement of.......................     2
    Letter to Mr. Hansen.........................................   2,3
    Redmond, Hon. Bill, a Representative in Congress from the 
      State of New Mexico, prepared statement of.................    20
    Skeen, Hon. Joe, a Representative in Congress from the State 
      of New Mexico..............................................     4
        Prepared statement of....................................    42

Statements of witnesses:
    Culp, Carson ``Pete'', Assistant Director for Minerals, 
      Realty and Resource Protection, Bureau of Land Management..     9
        Prepared statement of....................................    31
    Holly, Jean-Claude, National Board of Trustees of St. Jude's 
      Ranch for Children, Business Committee.....................    22
        Prepared statement of....................................    58
    Hunt, Lorraine T., Vice Chair, Board of County Commissioners, 
      Clark County, Las Vegas, Nevada, prepared statement of.....    46
    Soukup, Michael A., Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, Department 
      of the Interior............................................     8
        Prepared statement of....................................    30
    Ward, Father Herbert, Jr., President and Chief Executive 
      Officer, St. Jude's Ranch for Children.....................    20
        Prepared statement of....................................    50

Additional material supplied:
    Text of H.R. 2098............................................    34
    Text of H.R. 2989............................................    38



HEARING ON H.R. 2098, TO ESTABLISH THE NATIONAL CAVE AND KARST RESEARCH 
     INSTITUTE IN THE STATE OF NEW MEXICO, AND FOR OTHER PURPOSES. 
 ``NATIONAL CAVE AND KARST RESEARCH INSTITUTE ACT OF 1997''; AND H.R. 
  2989, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY TO THE ST. 
 JUDE'S RANCH FOR CHILDREN, NEVADA, APPROXIMATELY 40 ACRES OF LAND IN 
LAS VEGAS, NEVADA, TO BE USED FOR THE DEVELOPMENT OF FACILITIES FOR THE 
          RESIDENTIAL CARE AND TREATMENT OF ADJUDICATED GIRLS

                              ----------                              


                       THURSDAY, FEBRUARY 5, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:17 a.m., in 
room 1324, Longworth House Office Building, Hon. Eni F.H. 
Faleomavaega, presiding.

   STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. In the good spirit of bipartisanship this 
morning, I would like to personally welcome Senator Bingaman 
and our good friend, Congressman Joe Skeen. The chairman should 
be here very shortly, so as the Ranking Democrat on the 
Subcommittee, I would like to begin the hearing this morning. I 
would like to welcome everybody to this hearing on H.R. 2098 
and H.R. 2989.
    The first bill, H.R. 2098, which was introduced by 
Congressman Joe Skeen of New Mexico, is to establish a National 
Cave and Karst Research Institute in the State of New Mexico. 
The institute would be located near Carlsbad Caverns National 
Park in New Mexico and jointly managed by the National Park 
Service and other private or public entities as determined by 
the Secretary. Funding for the establishment and management of 
the institute would come from appropriate moneys, but only to 
the extent that these moneys match an equal amount of funding 
from non-Federal sources. The Senate has already passed 
identical legislation in companion bill S. 231.
    [The text of H.R. 2098 may be found at end of hearing.]
    Mr. Faleomavaega. The second bill is H.R. 2989 and this 
bill is introduced by Congressman John Ensign of Nevada. It 
would direct the Secretary of the Interior to convey 40 acres 
of land to the St. Jude's Ranch for Children in Las Vegas, 
Nevada. St. Jude's Ranch is a non-denominational nationally 
recognized community which serves the needs of abused, 
abandoned, and neglected children. The 40 acres to be conveyed 
will be used by St. Jude's Ranch to construct a new campus that 
will house over 100 adjudicated girls, along with other 
facilities such as a library, chapel, and recreation center. 
The land is currently managed by the Bureau of Land Management.
    [The text of H.R. 2989 may be found at end of hearing.]
    Mr. Faleomavaega. I would like to welcome our two 
colleagues, Senator Bingaman and Congressman Joe Skeen for 
their testimony. Welcome, gentlemen.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the hearing today. We 
are going to hear testimony on two bills: One in regard to 
establishing the National Cave and Karst Research Institute in 
New Mexico and the other regarding a land conveyance in Nevada.
    The first bill is H.R. 2098 which was introduced by 
Congressman Joe Skeen of New Mexico to establish the National 
Cave and Karst Research Institute in the State of New Mexico. 
The Institute would be located near Carlsbad Caverns National 
Parks in New Mexico and jointly managed by the National Park 
Service and other private or public entities as determined by 
the Secretary. Funding for the establishment and management of 
the Institute would come from appropriated moneys, but only to 
the extent that these moneys match an equal amount of funding 
from non-Federal sources. The Senate has already passed 
identical legislation in a companion bill, S. 231.
    The second bill is H.R. 2989. This bill was introduced by 
Congressman John Ensign of Nevada and would direct the 
Secretary of the Interior to convey 40 acres of land to the St. 
Jude's Ranch for Children in Las Vegas, Nevada. St. Jude's 
Ranch is a non-denominational nationally recognized community 
which serves the needs of abused, abandoned, and neglected 
children. The 40 acres to be conveyed will be used by St. 
Jude's Ranch to construct a new campus that will house over 100 
adjudicated girls along with other facilities such as a 
library, chapel, and recreation center. The land is currently 
managed by the Bureau of Land Management.
    I would like to welcome two of my colleagues and a member 
of the Senate who will testify today--Congressmen Joe Skeen and 
Bill Redmond both from New Mexico. In addition, we have Senator 
Jeff Bingaman from New Mexico. We are pleased to have you 
gentlemen here today and thank you for coming.
    I also want to welcome the Administration and the other 
witnesses who are testifying at the today's hearing.
                                ------                                

     Letter to Mr. Hansen from Mr. Oran Means, President, Carlsbad 
                       Department of Development
                Carlsbad Department of Development,
                                      Carlsbad, New Mexico,
                                                  January 26, 1998.
The Honorable James V. Hansen,
Subcommittee on National Parks and Lands,
U.S. House of Representatives,
Washington, DC.
Re: Hearing--February 5, 1998

    Dear Representative Hansen: As President of the Carlsbad Department 
of Development, the leading economic development agency serving the 
city of Carlsbad and Eddy County, New Mexico, I am writing today to 
express our strong support for the passage of the legislation creating 
the National Cave & Karst Research Institute in the Carlsbad Caverns 
area. We would like to extend our heartfelt appreciation of your 
efforts in making this proposal a reality.
    As you are aware, The National Cave & Karst Research Institute 
Study. A Report to Congress, dated December, 1994, completed by the 
Southwest Regional Office of the National Park Service selected the 
Carlsbad area in a national search as a viable site for the Institute, 
primarily for the following reasons:

        <bullet> Although some other areas under consideration could be 
        viable sites for the Institute, the Carlsbad location was seen 
        to have broad support from private and political (local, state, 
        and regional) sources. Assuming that the management framework 
        for the Institute was set up appropriately, other cave resource 
        areas would also benefit.
        <bullet> The local cave resources are extremely varied and 
        unique. Relatively short drives lead to gypsum karst, alpine 
        karst, and lava pseudo-karat, as well as to the unique 
        limestone caves of the Guadalupe Mountains' own unique karst. 
        Additionally, Lechuguilla Cave and Carlsbad Caverns are 
        nationally renowned.
        <bullet> The Carlsbad Environmental Monitoring & Research 
        Center could serve as an associated resource, and could 
        minimize the academic isolation of the Carlsbad area.
        <bullet> The local oil and gas industry would be supportive of 
        such a venture, and could be potential sponsors.
        <bullet> There are three Federal land management agencies 
        located in the area, all of which would support a research 
        institute, because each has major cave management 
        responsibilities.
    The National Cave & Karst Research Institute in Carlsbad, NM, is 
proposed to be jointly administered by the National Park Service and 
New Mexico State University. A Memorandum of Understanding has been 
drafted whereby the National Park Service and New Mexico State 
University agreed on the format for the planning phase and the funding 
of this program. A draft Management and Operation Plan, completed in 
June, 1996, as a cooperative effort of the National Park Service, U.S. 
Department of the Interior, New Mexico State University, Carlsbad 
Environmental Monitoring & Research Center, and the Carlsbad Department 
of Development, has also been completed. The Carlsbad community is 
dedicated to seeking matching funds as needed for the creation of the 
National Cave & Karst Research Institute and in creating a Federal/
State/Private partnership to accomplish our goals.
    The establishment of the National Cave & Karst Research Institute 
in the Carlsbad area would bring further national and international 
recognition of Carlsbad and Eddy County as a center of scientific 
research and excellence. The CDOD, representing 120 CEO of industry, 
business, and financial institutions, the city of Carlsbad, Eddy County 
Board of Commissioners, New Mexico State University-Carlsbad, College 
of the Southwest, and the Carlsbad Chamber of Commerce, request your 
continued support and consideration of the creation of the National 
Cave & Karst Research Institute in the Carlsbad Caverns National Park 
area.
            Sincerely,
                                                Oran Means,
                                                         President.
                                 ______
                                 
  Letter to Mr. Hansen from William B. Conroy, President, New Mexico 
                            State University
                       New Mexico State University,
                                    Las Cruces, New Mexico,
                                                  January 30, 1998.
The Honorable James V. Hansen,
Chairman, Subcommittee on National Parks and Public Lands,
Committee on Resources,
U.S. House of Representatives,
Washington, DC.
Dear Chairman Hansen:
    I am writing to express New Mexico State University's strong 
support and endorsement of H.R. 2098 (S. 231) the national Cave and 
Karst Research Institute Act of 1997. The University is pleased to be 
able to join with the numerous groups, organizations, and individuals 
who support this exciting research and education oppor-

tunity for New Mexico and the nation. I am aware of the strong and 
unified support for the Institute by New Mexico's entire congressional 
delegation, the people of Carlsbad and Eddy County, and by citizens 
throughout New Mexico and the United States who value our unique 
natural resources and realize the importance of research and education 
in preserving them.
    New Mexico State University (NMSU) faculty from a variety of 
relevant disciplines stand ready to lend their scientific expertise to 
help meet the goals of the Cave and Karst Research Institute. NMSU's 
presence in the Carlsbad community through its branch campus and 
environmental monitoring center places it in an ideal position to 
support the National Park Service and the local community in this 
exciting and important enterprise.
    I urge you to join your colleagues from New Mexico in support of 
legislation for the establishment of a national Cave and Karst Research 
Institute (H.R. 2098).
            Sincerely,
                                         William B. Conroy,
                                                         President.

STATEMENT OF HON. JOE SKEEN, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW MEXICO

    Mr. Skeen. Thank you, Mr. Chairman. I want to thank you and 
Chairman Hansen for holding this hearing today on H.R. 2098, 
legislation that establishes a National Cave and Karst Research 
Institute in the vicinity of the Carlsbad Caverns National Park 
in New Mexico.
    This important legislation will complete the commitment 
that the U.S. Congress has previously made toward protecting 
our nation's cave resources, but more than that, it will be a 
major tool in providing our nation with the wealth of knowledge 
that our caves and karst resources hold.
    I would add very quickly that this legislation clearly 
states that the institute will be located outside the 
boundaries of Carlsbad Caverns National Park. I would also say 
up front that the legislation clearly calls for matching equal 
funds from non-Federal sources for this important institute. It 
is my understanding that the Congressional Budget Office has 
stated that there would be no net budgetary impact for pay-as-
you-go purposes of section 252 of the Budget Act.
    Support for this project at the local, State, and National 
levels is overwhelming. An identical companion bill, S. 231 
sponsored by Senator Bingaman and cosponsored by Senator 
Domenici, has already passed the Senate, as you mentioned 
earlier.
    Here in the U.S. Congress, the entire New Mexico delegation 
is supporting this effort, and I would draw the Committee's 
attention to a National Park Service 1994 study on this subject 
which supports the establishment of a National Cave and Karst 
Research Institute and supports the Carlsbad, New Mexico, site. 
This legislation is the first step in implementing the 
recommendations made in the 1994 report.
    Many of us today are latecomers to understanding the real 
importance of cave and karst systems. We have always been 
fascinated by the beauty and mystery of caves, but as we 
approach the new century, cave scientists have now provided us 
with new and important insights on caves and their importance. 
I was amazed to find that 22 percent of our nation's freshwater 
resources are tied up in groundwater in cave and karst regions. 
The 1994 study shows us that caves provide us with important 
information about natural resources, human history, evolution, 
and global cli-

mate change, as well as waste disposal, petroleum recovery, and 
biomedical investigation.
    In 1988, Congress recognized many of these facts when they 
passed the Federal Cave Resources Protection Act, which is 
known as Public Law 100-691. This law directed the Secretaries 
of the Interior and Agriculture to inventory and list 
significant caves on Federal lands. It also instructed the 
Federal agencies to manage the cave resources and disseminate 
information on caves, and in 1990, Congress continued its 
interest in caves and karst research with the passage of Public 
Law 101-578. This law directed the Secretary of Interior 
through the National Park Service to establish and administer a 
cave research program. Further, the study also asked for a 
proposal to Congress examining the establishment of the Cave 
Institute.
    We have over 40,000 known caves in the United States and 
the creation of the Cave Institute will complete the 
Congressional effort to come up with a comprehensive research, 
management, education, and preservation program for these 
important cave-related resources.
    It is natural for this institute to be jointly administered 
by the National Park Service and another entity. The NPS 
already has this kind of management model with its cooperation 
in park studies unit. The NPS would have the primary lead and 
ultimate responsibility for the institute and would retain 
indirect control over its activities and programs.
    The entity, more than likely an academic entity, would 
actually plan, coordinate, and administer the institute and its 
programs. The institute could be located either at the site of 
the academic entity or at a separate location.
    The National Park Service has a long history of cave 
management dating back to the establishment of Mammoth Cave in 
1941 and the inclusion some 75 years ago of Carlsbad Caverns 
into the National Park System. Today, the National Park Service 
has a strong mandate for managing and protecting cave systems, 
and many of the NPS units contain significant cave resources. 
The National Park Service is working closely with other Federal 
land management agencies and a major educational institution 
will be able to generate more government and non-government 
support for these important activities.
    The association between the Park Service and an academic 
entity could also provide opportunities to enhance the mission 
of each entity, including the conduct of basic research, the 
dissemination of scientific information to users, and the 
education of the public and of professional scholars, according 
to the 1994 report.
    As a senior Member of Congress, I truly understand the old 
ways of doing things in Congress are over. The Federal 
Government has developed new ways and new methods of funding 
important programs and new projects. These new partnerships can 
bring added funding, improved research and program content to a 
project such as this institute.
    I would add one further major benefit. Whether we like it 
or not, many people outside of Washington do not trust the 
Federal Government. Now, that is news, is it not? They think 
that the government is arrogant and they think it is out of 
touch with the citizens of this nation. These partnerships open 
the door to full public disclosure and increase the public's 
confidence in government and the work that the project will 
produce.
    For the record, I would like to include several letters of 
support for the project from the local community and from New 
Mexico State University, and I believe several may have been 
mailed directly to the committee.
    [The information of Mr. Skeen may be found at end of 
hearing.]
    Mr. Skeen. Once again, I want to thank you and the 
Committee for this hearing and I look forward to working with 
you on this important legislation.
    Mr. Faleomavaega. Without objection, Congressman Skeen's 
statement will be made part of the record and all the related 
materials, as he had requested, for the record.
    Mr. Skeen. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Thank you, Congressman Skeen.
    [The prepared statement of Mr. Skeen follows:]
    Mr. Faleomavaega. Senator Bingaman?

 STATEMENT OF HON. JEFF BINGAMAN, A UNITED STATES SENATOR FROM 
                    THE STATE OF NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. I will 
also ask that my full statement be included in the record.
    Mr. Faleomavaega. Without objection.
    Senator Bingaman. Let me just say very briefly, I strongly 
support the bill which Congressman Skeen has introduced here. 
It is a companion to a bill we passed already in the Senate. It 
will put the Park Service in a position to work in partnership 
with New Mexico and particularly New Mexico State University, 
we would anticipate, in developing this research resource for 
the country.
    There are people who have devoted their lives to the 
science of speleology and I have just become aware of the 
intensity of commitment that many of those people feel. I do 
think that Carlsbad is the right location for this, both 
because of Carlsbad Caverns and because of the Lechuguilla 
Cave, which was, of course, discovered several years ago and is 
generally considered a major cave resource for additional 
exploration.
    I strongly support this effort. I think it is a very 
responsibly drafted effort and I hope very much the Committee 
here will pass the bill and that we can send the bill to the 
President for his signature very soon. Thank you very much.
    Mr. Faleomavaega. Thank you very much, Senator Bingaman.
    [The prepared statement of Senator Bingaman follows:]

 Statement of Hon. Jeff Bingaman, a Senator in Congress from the State 
                             of New Mexico

    Mr. Chairman, I appreciate this opportunity to testify 
before the Subcommittee today concerning H.R. 2098 which will 
create a National Cave and Karst Research Institute in 
Carlsbad, New Mexico. As you may be aware this bill is 
supported by the entire New Mexico delegation and is a 
companion bill to S. 231 which passed the Senate last year. I 
want to thank the Chairman for placing this bill on the agenda 
at this early date, and I hope that upon consideration here in 
the House, that it will be enacted this year.
    Mr. Chairman, as we approach the 21st century, one of the 
major issues we face is the protection and management of our 
water resources. In America, the majority of the Nation's fresh 
water is groundwater--25 percent of which is located in cave 
and karst locations. As a whole, 20 percent of the United 
States is karst, defined as a landform characterized by 
sinkholes, caves, dry valleys, fluted rocks, enclosed 
depressions, underground stream ways and spring resurgences.
    Recent studies have indicated that research into cave and 
karst resources may provide valuable information not only 
related to groundwater supply and contamination, but for waste 
disposal, petroleum recovery, climate change, and biomedical 
investigations as well. Caves also often have historical or 
cultural significance, and many have religious significance for 
Native Americans. While other nations have recognized the 
importance of developing information on the management of their 
cave resources and have sponsored research in this area, the 
United States has lagged behind.
    For example, our National Park System manages 58 units with 
caves and karst features, yet academic programs on these 
systems are virtually nonexistent. Most research is conducted 
with little or no funding and the resulting data is scattered 
and often hard to locate. The few cave and karst organizations 
and programs which do exist, have substantially different 
missions and there is no centralized program to analyze data or 
determine future research needs.
    This bill is the culmination of a process that Congress 
started ten years ago to address this gap in our scientific 
research programs. In 1988, Congress directed the Secretaries 
of the Interior and Agriculture to provide an inventory of 
caves on Federal lands and to provide for the management and 
dissemination of information about the caves. That directive 
created a heightened awareness of the need for expanding and 
coordinating cave research. In 1990, Congress responded by 
directing the National Park Service to establish care research 
program and prepare a proposal for Congress on the feasibility 
of a centralized National Cave and Karst Research Institute in 
the vicinity of Carlsbad Caverns National Park.
    The resulting Park Service report to Congress concluded 
that a National Cave and Karst Research Institute is needed and 
that Carlsbad would be an ideal location.
    The study report to Congress listed several serious threats 
to our cave resources from a sheer lack of knowledge concerning 
how the management of surface lands interacts with cave and 
karst areas. These threats include inappropriately placed toxic 
waste repositories, and poorly managed or designed sewage 
systems and landfills.
    Mr. Chairman, the National Cave and Karst Research 
Institute would begin filling this information gap through a 
coordinated research and education program. Its principle goals 
would be to further the science of speleology, to centralize 
speleological information, to further interdisciplinary 
cooperation in cave and karst research programs, and to promote 
sustainable and environmentally sound resource management 
practices. To accomplish these objectives, the institute would 
establish a comprehensive cave and karst library and 
information data base, sponsor national and international cave 
and karst symposiums, develop long-term research studies, 
produce cave-related educational publications, and develop 
cooperative agreements with Federal agencies having cave 
management responsibilities.
    Mr. Chairman, the report to Congress also notes that for a 
number of reasons the Carlsbad region is an ideal location for 
a research center of this type:

    (1) The region boasts numerous world class caves and incredibly 
diverse cave and karst resources including: gypsum and alpine karst 
systems, lava pseudo-karat; and unique limestone caves;
    (2) The local community fully supports establishment of the 
institute, and is actively pursuing a Federal/State/Local partnerships 
to create and maintain it. The Carlsbad Department of Development 
(CDOD) which represents the business and financial community, has 
already drafted a cooperative Management and Operation Plan between the 
Park Service, New Mexico State University, and the CDOD; and finally,
    (3) The Institute could draw upon an array of academic and 
technical resources in the Carlsbad area including: the experience of 
the National Park Service, the Bureau of Land Management, and the U.S. 
Forest Service, all of which manage cave resources in the Carlsbad 
area, and the academic support of the New Mexico State University 
Carlsbad Environmental Monitoring & Research Center which is prepared 
to coordinate research activities with the Institute.
    The National Park Service currently anticipates that the 
Research Institute would be jointly administered by the 
National Park Service and New Mexico State University and a 
Memorandum of Understanding has been drafted to that effect. 
Also, the Carlsbad Department of Development, is committed to 
obtaining financial support from local governmental and private 
resources. The CDOD believes that it can obtain, a matching 
grant from the State of New Mexico equal to the available 
Federal funds.
    Mr. Chairman, this legislation will help provide the 
necessary tools to help discover the wealth of knowledge 
contained in this important, but relatively unknown, landform. 
Carlsbad, NM already has in place many of the needed 
cooperative institutions, facilities, and volunteers that will 
work toward the success of this project. It is imperative that 
we take advantage of these conditions and establish the 
National Cave and Karst Research Institute.
    I thank the Chairman and members of the Subcommittee for 
their time and for the opportunity to testify in support of 
this legislation.

    Mr. Faleomavaega. Again, without objection, the record will 
remain open for the next 10 days if there are additional 
materials that people wish to submit and be made part of the 
record.
    Gentlemen, thank you very much for your testimony.
    Mr. Skeen. We appreciate your interest.
    Mr. Faleomavaega. I note also for the record that the 
National Park Service did, in fact, conduct a survey or a study 
in 1994 and the National Park Service does support this 
legislation and we hope very much to submit it to the President 
for his signature in the near future. Thank you very much, 
gentlemen.
    We have some other people who wish to testify, Michael 
Soukup, the Associate Director of the National Resource 
Stewardship and Science, and Mr. Carson Culp, the Assistant 
Director for Minerals, Realty, and Resource Protection from the 
Bureau of Land Management.
    Gentlemen, welcome. Your statements will be made part of 
the record and I would like to ask Mr. Soukup for his 
statement. Thank you.

  STATEMENT OF MICHAEL A. SOUKUP, ASSOCIATE DIRECTOR, NATURAL 
   RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Soukup. Thank you, Mr. Chairman. I will just have a few 
summary comments for you. I appreciate the opportunity to 
provide the Subcommittee with the views of the National Park 
Service on H.R. 2098.
    The National Park Service supports this legislation. We 
feel it is in sync with the kinds of activities that we ought 
to be promoting. We are a manager of some of the finest cave 
treasures and karst watersheds in the country and we are 
excited about this kind of effort.
    There are two things we have to have, though, along with 
this legislation and one is some appropriations to support it, 
but also a partner or partners in order to carry it out.
    We agree with the importance of the karst phenomenon. It is 
a real repository of our groundwater and our drinking water and 
with that kind of resource and the future needs for groundwater 
resources, we think more information and more research and more 
effort at synthesizing that research is a very high priority 
for the National Park Service.
    Along with those karst watersheds and those intricate flows 
of fresh water through the limestone and dolomite materials are 
some of the most remarkable resources that the Park Service 
manages. The speleothems and the formations that make up those 
sites or accompanying those sites are ones that we should 
intensively manage. They are sort of out of sight and sort of 
out of mind, but there are many very difficult kinds of 
management issues associated with caves and some of the larger 
caves with so many entrances.
    We need more information. We need more education. And we 
need to catalyze and synthesize the tremendous volunteer effort 
that is out there. We see this institute as being that Federal 
contribution to pulling together the information that is out 
there and to really help and support what has been pretty much 
a volunteer kind of effort in cave exploration, in cave 
mapping, and in cave management.
    We think the institute ought to be set up with a very 
flexible approach. We have a fair track record of working with 
academic institutions. We believe it is very important that 
this institute have a full partner and perhaps other Federal 
agencies also as partners. We believe we could put together a 
very effective model that would bring in both private and 
public and Federal partners and establish this unit at a 
university. I think that would be a very smart move.
    Let me just close. I think our management in the National 
Park Service has been heightened. I think perhaps some of the 
members may have read some of the press coverage of some of the 
new management issues that are coming up before us, some of the 
vandalism issues, some of the theft issues and so forth. We 
have started a cave management program in the 1990's after the 
passage of the Cave Protection Act of 1988 and we are putting 
some resources into it, but we feel that this Cave Institute 
would provide a very welcome and needed addition and a very, 
very important site of synthesis of the information, the 
research, and the data that is present and needs to be 
generated.
    Mr. Chairman, that concludes my remarks.
    Mr. Faleomavaega. Thank you, Mr. Soukup.
    [The prepared statement of Mr. Soukup may be found at end 
of hearing.]
    Mr. Faleomavaega. Mr. Culp?

   STATEMENT OF CARSON ``PETE'' CULP, ASSISTANT DIRECTOR FOR 
   MINERALS, REALTY AND RESOURCE PROTECTION, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Culp. Mr. Chairman, I am here to address the other bill 
that the Committee is considering this morning. That is H.R. 
2989, which is a bill to convey approximately 40 acres of 
public lands in Las Vegas, Nevada, to St. Jude's Ranch for 
Children. That is a facility for troubled, abused, and 
abandoned adolescent girls, and I might note that----
    Mr. Faleomavaega. Mr. Culp, maybe we ought to revise our 
procedure here a little bit because we do have the chief 
sponsor of the bill with us here this morning and I would like 
to offer my personal welcome to the gentleman from Nevada, both 
gentlemen from Nevada, Congressman Ensign and Congressman 
Gibbons. Maybe before we have you respond, we will have our 
good friend from Nevada, Congressman Ensign, for his opening 
remarks concerning this piece of legislation.

  STATEMENT OF HON. JOHN ENSIGN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Ensign. Thank you. First of all, I want to thank the 
chairman for holding the hearing, especially so early in this 
second session of the 105th Congress. I want to welcome my 
fellow Nevadans, Father Ward and John Holly. I deeply 
appreciate their efforts on this project. Likewise, I 
understand Clark County Commissioner Lorraine Hunt had wanted 
to be here today but was unable, and I have her statement in 
support of this legislation.
    [The prepared statement of Ms. Hunt may be found at end of 
hearing.]
    Mr. Ensign. Also, the Las Vegas City Council is expected to 
address a resolution in support of this bill in March. We do 
not expect any opposition to that resolution by the city 
council. I have also a letter for the record from State Senator 
John Porter in support of this legislation, as well.
    [The letter of Mr. Porter may be found at end of hearing.]
    Mr. Ensign. This legislation is vitally important to 
southern Nevada and hundreds of young women facing tough 
situations every day. H.R. 2989 would convey roughly about 40 
acres of BLM land to St. Jude's Ranch for Children to construct 
a Good Shepherd Campus for adjudicated girls.
    St. Jude's Ranch for Children has successfully operated a 
campus for abandoned and neglected children for over 30 years. 
They are now ready to embark on a project that is dedicated 
solely to the rehabilitation and counseling of troubled girls, 
known as the Good Shepherd Campus. Many of these girls are 
involved in drugs, prostitution, or other crime-related 
activities. They have been through the court system and the 
next step for them is juvenile detention.
    St. Jude's and the Good Shepherd Campus would provide an 
alternative to juvenile prison for the less-troubled youth, for 
those that can be turned around with some attention, love, 
mentoring, and guidance. The Good Shepherd Campus allows us the 
opportunity to change lives. Mr. John Holly is with us today, 
who graduated from the Ranch for Children. As he will tell you 
from his firsthand experience, the efforts of this organization 
have changed his life and can change others.
    We have an opportunity to provide 40 acres of federally 
owned land to develop recreational, education, and religious 
services to girls who deserve a second chance rather than 
sending them down the road of ultimate destruction. This 
facility will not only help Nevada's youth, but it will also 
house young women from neighboring States like Utah, the 
chairman's State.
    Now, I understand the concerns of some who say we are 
giving away our Federal assets. I am an ardent supporter of 
protecting the American taxpayer. However, I believe the cost 
of these 40 acres, federally owned, is far outweighed by the 
benefits if we can reform our at-risk children and provide an 
opportunity for those girls to lead a life of success and 
happiness.
    I want to thank the Ranking Member and I am looking forward 
to letting the Committee hear the statements of Father Ward and 
Mr. Holly. I am sure they will have some very enlightening 
words to reflect their experiences.
    Mr. Faleomavaega. I thank the gentleman from Nevada.
    [The prepared statement of Mr. Ensign follows:]

 Statement of Hon. John Ensign, a Representative in Congress from the 
                            State of Nevada

    Mr. Chairman. First and foremost I want to thank you for 
holding this hearing so early in this second session and 
welcome my fellow Nevadans, Father Ward and John Holly. I 
deeply appreciate their efforts in this project. Likewise, I 
understand Clark County Commissioner Lorraine Hunt had wanted 
to be here today, but was unable and she has a statement in 
support of this legislation. Also, the Las Vegas City Council 
is expected to address a resolution in support of this bill in 
March. We do not expect any opposition to that resolution by 
the City Council.
    This legislation is vitally important to southern Nevada 
and hundreds of young women facing tough situations everyday. 
H.R. 2989 would convey roughly 40 acres of Bureau of Land 
Management land to St. Jude's Ranch for Children to construct a 
Good Shepherd Campus for adjudicated girls.
    St. Jude's Ranch for Children successfully operated a 
campus for abandoned and neglected children for over 30 years. 
They are now ready to embark on a project that is dedicated 
solely to the rehabilitation and counseling of troubled girls, 
known as the Good Shepherd Campus. Many of these girls are 
involved in drugs, prostitution, or other crime related 
activities. They have been through the court system, and the 
next step for them is juvenile detention. St. Jude's and the 
Good Shepherd Campus would provide an alternative to juvenile 
prison for the less troubled youth--for those that can be 
turned around with some attention, love, mentoring and 
guidance. The Good Shepherd Campus allows us the opportunity to 
change lives. Mr. John Holly is with us today who graduated 
from the Ranch for Children. As he will tell you from his first 
hand experience, the efforts of this organization changed his 
life and can change others.
    We have an opportunity to provide 40 acres of federally 
owned land to develop recreational, educational, and religious 
services to girls who deserve a second chance, rather than 
sending them down the road of ultimate destruction. This 
facility will not only help Nevada's youth, but it will also 
house young women from neighboring states, like Utah Mr. 
Chairman. Now, I understand the concerns of some who say we are 
giving away our Federal assets. I am an ardent supporter of 
protecting the American taxpayer. However, I believe the cost 
of these 40 acres of federally owned land is far outweighed by 
the benefits if we can reform our at-risk children and provide 
an opportunity for those girls to lead a life of success and 
happiness.
    Mr. Chairman, I am looking forward to letting the Committee 
hear the statements of Father Ward and Mr. Holly. I am sure 
they will have some very enlightening words to reflect their 
experiences. After hearing the success stories, I am confident 
many members of this Committee will join me in my support of 
this legislation. Thank you.

    Mr. Faleomavaega. Mr. Gibbons, did you have any opening 
statement?

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. As a cosponsor of 
this legislation, I, too, want to welcome our guests here today 
before the House of Representatives and encourage all of us to 
listen closely and listen carefully to the importance of this 
legislation on the future of many people in Nevada who benefit 
greatly from this action.
    I want to congratulate my colleague, Mr. Ensign, as well, 
for having introduced it and promoted it. I think it is in the 
best interests of not just those of us in Nevada but America, 
as well, to look at this as perhaps the model for how we can 
improve the lives of these young women.
    Thank you, Mr. Chairman, for allowing me to have this brief 
opportunity to make a remark.
    Mr. Faleomavaega. I thank the gentleman from Nevada.
    I think we ought to pursue Mr. Soukup as a followup, since 
you are testifying primarily on H.R. 2098. We just want to 
raise some questions with you before proceeding on to H.R. 
2989, if we could.
    Mr. Soukup. Yes, sir.
    Mr. Faleomavaega. This is in reference to the Carlsbad 
Caverns in New Mexico, am I correct?
    Mr. Soukup. Yes, sir.
    Mr. Faleomavaega. How deep is this cave? I have never been 
there. I plead ignorance on this.
    Mr. Soukup. How deep is the cave?
    Mr. Faleomavaega. Yes. How far down is it?
    Mr. Soukup. It is pretty far down, sir. I do not know the 
exact specifications. I do have a person here that might be 
able to help with that.
    Mr. Faleomavaega. That is all right. Submit it for the 
record.
    Mr. Soukup. What is very interesting, sir, is below that in 
a very deep cave is the Lechuguilla Cave, and it is the deepest 
cave, I think, we have in the country, and it has just been 
discovered about, I think, maybe 10 years ago, and it is even 
deeper than Carlsbad. I can get you the depth if you would 
like.
    Mr. Faleomavaega. Does this mean that after all these 
years, we have never established an institute to conduct 
serious studies of caves and of the sort, or is this something 
that just has been thought of in recent years?
    Mr. Soukup. As I suggested, a lot of the effort has been 
pretty much a volunteer effort and those have been really quite 
remarkable. The non-profit organizations are out there. They 
are small, and this effort, I think, would complement that very 
well. It has really been almost a volunteer and a ground-up 
kind of effort, and this would sort of, I think, synthesize and 
provide a long-term memory and a very important function of 
integration of what is being done already, and perhaps if we 
can talk the Appropriations Committees into this, perhaps some 
seed money to encourage those efforts.
    Mr. Faleomavaega. You mentioned earlier in your testimony 
that the bottom line is that the National Park Service needs 
money. What is the estimate of the appropriations that you are 
looking for to make this feasible?
    Mr. Soukup. We think the annual operating cost, the 
National Park Service's share will be about $1.2 million. Right 
now, we have the 1994 report that you have as part of the 
record. We would like to look at those figures again. That is a 
little bit old now, and a lot of the outlay of funds would 
really be a function of how we proceed and what kind of 
partnerships we can build. We are also looking at the 
possibility of a structure, a building, which would cost an 
additional several million dollars, depending on whether or not 
we need it. We hope a strong partnership will be constructed 
that would perhaps house this institute in structures in 
institutions that are already available.
    Mr. Faleomavaega. I gather that your office is working 
jointly with Senator Bingaman and Congressman Skeen's offices 
to see if we can find some resolution to some of the problems 
and the concerns that you raised earlier?
    Mr. Soukup. Yes, sir. I know that there is a lot of support 
in the State of New Mexico for this and we think we can work 
with them.
    Mr. Faleomavaega. I would like to turn the time over to 
other members if they would have any questions concerning H.R. 
2098 on the National Cave and Karst Research Institute. Any 
questions?
    Mr. Gibbons. I do have a question, if I may.
    Mr. Faleomavaega. The gentleman from Nevada. Go ahead.
    Mr. Gibbons. Thank you very much. I appreciate your 
recognition at this point.
    First of all, Mr. Soukup, let me ask, if this is to be a 
partnership in the construction of the National Cave and Karst 
Research Institute, what is going to be the structure of the 
makeup of this institute? Who will be in charge? Who will be 
the partners? And who will be the controlling authority in 
terms of regulating the environment within which this research 
is to take place?
    Mr. Soukup. Well, the Park Service should be the leader and 
the agency in charge. We hope it will be a joint Federal-State 
or a Federal-private effort, and also if it is Federal, then 
perhaps we can encourage the other agencies to put some 
resources in this so that we can manage in a more uniform way 
across the Federal Government.
    I believe it should be a Park Service effort. We have an 
enormous--we have 60 units with cave resources. We have a small 
cave management program now. We have one of the world's experts 
on caves and a very small research budget that is not more 
than, in any given year, $30,000 to $50,000 of seed money that 
we use to develop cooperative studies.
    Mr. Gibbons. Have you had conversations with the State of 
New Mexico on this, other than at the Federal level, in terms 
of their participation?
    Mr. Soukup. Yes. The Park Service has had an ongoing 
dialog. There have been site visits. We know that there is an 
awful lot of interest in the city of Carlsbad and New Mexico 
State University in being a partner. It is important for us to 
work out the details and have some appropriation so that we can 
go out with an opportunity to be a partner.
    Mr. Gibbons. In light of the fact that you indicated in 
your remarks at the bottom of page one that karst topography, 
water resources, caves are an important factor in our study of 
the history of global climate change, what do we know so far 
from the studies that we have already obtained about global 
climate change and looking at caves?
    Mr. Soukup. I cannot really give you a good answer to that. 
I know it is an area that really has a lot to offer, just down 
to simple things as studies of pack rat middens that are often 
found in caves and they give us an idea of how the vegetation 
changes, how pollen records change. They are a repository of a 
lot of information in that they are repositories of materials 
that we can go back and look at.
    My impression of what they have told us so far has been 
more of the short-term kinds of things. We use them to look at 
issues like changes in vegetation at Yellowstone National Park 
and so forth, but I could not probably give you any good 
analysis of what it means for global climate change in the 
larger picture. We could provide that information, I believe, 
if we had a chance to go back and do that.
    Mr. Gibbons. You said you already have a cave and karst 
research program with the National Park System today, and we 
have the Federal Cave Resource Protection Act of 1988. What 
further regulatory recommendations do you envision will be made 
from this research institute that will either bolster, 
supplement, or detract from those existing regulations under 
these laws?
    Mr. Soukup. I am not so sure this will lead to any further 
regulatory efforts. Nothing comes to mind on how that would be 
done. To me, this is more of an information gathering and 
synthesis kind of effort, central data bases and better 
understanding and that kind of stuff. How that relates into how 
we should manage better, I think remains to be seen.
    Mr. Gibbons. So all the science that you generate from this 
institute will be a public record that will be available to 
anybody at any time?
    Mr. Soukup. Absolutely.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Faleomavaega. The gentleman from Michigan?
    Mr. Kildee. Thank you, Mr. Chairman. I really have no 
questions on H.R. 2098. I will probably get some dialog with 
Father Ward on the next bill. Thank you.
    Mr. Faleomavaega. The gentleman from Nevada, Mr. Ensign, 
questions?
    Mr. Ensign. No questions.
    Mr. Faleomavaega. Just one additional question to Mr. 
Soukup. The Carlsbad Caverns, is this under the BLM or is it 
under the National Park Service? I am a little confused here.
    Mr. Soukup. It is under the National Park Service, sir.
    Mr. Faleomavaega. But the land, it is not owned by the 
Bureau of Land Management?
    Mr. Soukup. We own, I cannot remember how many acres, but 
we own basically the land that is over the top of the cave.
    Mr. Faleomavaega. So the BLM has nothing to do with the 
caves?
    Mr. Soukup. Not to my knowledge.
    Mr. Faleomavaega. I was a little confused here.
    Mr. Soukup. Not to these caves, anyway. They have caves of 
their own, and I think they would be interested in this 
institute, but they do not have Carlsbad Caverns.
    Mr. Faleomavaega. Mr. Culp, we would love to hear from you 
now.
    Mr. Culp. Certainly, Mr. Chairman. I will go back to H.R. 
2989, if I may.
    Mr. Faleomavaega. Yes, by all means.
    Mr. Culp. Is that where we are? Certainly, Mr. Ensign did a 
terrific job in describing the St. Jude's program for young 
people, which is an admirable program.
    A little further background. St. Jude's does have a lease 
under the Recreation and Public Purposes Act with the BLM for a 
tract that is a few miles away from the tract that is the 
subject of this bill. That lease is under the R&PP Act 
provisions that provide for transfers or leases to nonprofit 
organizations at 50 percent of ap-

praised value. So the annual rental for the other tract is 
about $54,000.
    The tract that is the subject of this bill, as I say, is a 
slightly different tract that St. Jude's has looked at and, it 
is my understanding, has better access to the utilities and, 
therefore, can be developed at somewhat lower cost. We believe 
the tract is certainly suitable for this purpose, subject to 
some routine actions, such as hazardous materials clearances.
    However, we would recommend processing the transaction 
under current administrative procedures, which would be the 
Recreation and Public Purposes Act, primarily because the bill 
would establish a new standard for no-cost transfers as opposed 
to the current process, which is at 50 percent of appraised 
value and that, we believe, would create some difficulties with 
some 160 R&PP Act leases and transfers that have already 
occurred in the Las Vegas Valley and the whole series of 
pending applications from similar organizations.
    Having said that, if Congress goes forward to pass the 
bill, there are a couple of technical matters that are covered 
in our submitted testimony that we would recommend. One of 
those is to change the time line from 30 days to 120 days to 
provide enough time for hazardous materials inventories and 
other actions that would need to take place prior to the 
transfer.
    The other principal change we think would make sense 
relates to the reversionary clause of the legislation, which is 
standard in both R&PP Act leases and transfers and similar 
legislation. That would be simply that we use some standard 
language that we use for other leases and that it be broadened 
to use the term ``children'' instead of ``girls'' to allow for 
some future decisions by St. Jude's that might include services 
to young men and not get us into looking at the issue of a 
reversion simply as a result of that kind of change.
    That concludes my remarks.
    [The prepared statement of Mr. Culp may be found at end of 
hearing.]
    Mr. Faleomavaega. Mr. Gibbons?
    Mr. Gibbons. Mr. Chairman, at this time, I will yield to 
the sponsor of the bill, Mr. Ensign, and perhaps later will 
have a question.
    Mr. Faleomavaega. Gladly.
    Mr. Ensign. Thank you, Mr. Chairman.
    I have a few questions. First of all, we have gone kind of 
dual tracks on this piece of land. St. Jude's has put an 
application in for the R&PP process. My question for you would 
be this. If the city would agree that their name would be on it 
so that they could do this for no money, would you be able to 
guarantee us or come as close as you can to guaranteeing us 
that we could process this in around 3 months instead of the 3 
years that it takes?
    That is one of the biggest problems that we have with the 
R&PP process, that it takes about on average of about 3 years, 
and also because with the city having their name on it, 
obviously, then they could do it for no money. But could we get 
this thing done in the 3 months, 3 or 4 months, something like 
that, that would be a reasonable timeframe?
    Mr. Culp. Mr. Ensign, as you know and as I mentioned, there 
is a large number of applications under that Act and a number 
of other realty actions in the Las Vegas Valley, big land 
exchanges and so forth. But I believe I could certainly make 
that commitment, if we could have 3 months or 120 days to 
process the transaction.
    Certainly, you have mentioned an alternative, a potential 
alternative where there would be some sort of partnership 
between St. Jude's and the city or the county that would bring 
into play the lower-cost provisions under the R&PP Act.
    Mr. Ensign. That would be no-cost provision, right?
    Mr. Culp. There are actually two provisions for city, 
county, and State, or two procedures for city, county, and 
State governments. There is the no cost for recreation purposes 
and there is a very nominal cost for other governmental 
purposes. It is like $2 an acre annual lease rental.
    Mr. Ensign. Right. Obviously, I think that that would be 
reasonable.
    Mr. Culp. Right.
    Mr. Ensign. We think that this is very important 
legislation. Last year, we had discussed in our public lands 
bill, there was a place for some ball fields within the public 
lands bill and it was brought up during the whole debate about 
30 days, or that the environmental studies, the hazardous 
materials and that kind of a thing, and the BLM had pretty much 
agreed that 30 days was enough to be able to accomplish that 
last year. You note in here that you would need at least 90 
days, but last year it seemed that 30 days was enough to do 
that, so I would like your comments on that.
    Mr. Culp. I did not review the testimony from last year. I 
am relying on what my staff has told me about 90 days.
    Mr. Ensign. You see, this is similar to last year in that 
both pieces are already marked for disposal.
    Mr. Culp. I understand. Certainly, we would work to do it 
as quickly as we could. Staff tells me it would take more than 
the 30 days.
    Mr. Ensign. The bottom line, I think for this legislation 
versus the R&PP is that I think everybody agrees that this is a 
worthy thing to do, that this is one of those things that 
public-private partnership is a beautiful thing, that we can 
get something done for some troubled girls who potentially many 
of them are going to be able to turn their lives around and we 
are going to be able to, instead of housing them perhaps in 
prisons or leading a life of prostitution where they could be 
on drugs and end up with crack babies and all the other things 
that could happen to a lot of these girls, I think that we all 
agree that this is something that we need to get done, whether 
it is legislatively or through the sped-up R&PP process. We are 
willing to work with the BLM whichever way we need to get this 
thing done.
    So the purpose for the legislation is to make sure that 
this becomes a very, very high priority in the Las Vegas 
Valley, because as fast as we are growing and with all the 
tourism, with all that tourism, anyplace you have tourist 
populations, you end up with a lot of runaways. You end up with 
a lot of troubled teenagers. That is why we want to make sure 
that this thing is done as quickly as possible.
    I can speak on behalf of St. Jude's that they are an 
incredible organization, that they do a lot with the money that 
they get and they do a lot of good for young people in southern 
Nevada.
    Mr. Culp. We certainly agree that they are a terrific 
organization and we are certainly willing to work on the whole 
range of alternatives. My principal concern, I think, with the 
time lines is to make sure we get the hazardous materials 
inventory done and done properly. That is always a concern. But 
as I said, this is definitely a suitable area and a worthy 
purpose.
    Mr. Ensign. The question is on the disposal process. Is 
that not done, or why is that not done when something is marked 
as far as the hazardous materials, if something is already 
marked for disposal.
    Mr. Culp. Well, the issue there would be that the entity 
acquiring the property would take on the liability for those 
materials.
    Mr. Ensign. And so the BLM, by doing these studies, is 
saying that we are relieving you of any responsibilities?
    Mr. Culp. That we are conveying land that is clean and does 
not have that kind of baggage with it, yes.
    Mr. Ensign. I guess I am confused because last year, the 30 
days seemed to be OK with a similar-type process and it is not 
OK this year. I do not understand that.
    Mr. Culp. I would be more than happy to check on that for 
you and get you that.
    Mr. Ensign. I would appreciate that. Just to make sure that 
we have this very clear, are you saying that, first of all, 
that if we did the city the way that I talked about as far as 
the city working in conjunction with St. Jude's, the city is on 
the application, that this would be consistent with an R&PP 
for, say, the $10 per acre per year type of a lease?
    Mr. Culp. That would move it into the governmental category 
where the costs are much lower, the nominal costs, right.
    Mr. Ensign. And we could do this thing within, say, 3 to 4 
months?
    Mr. Culp. Yes.
    Mr. Ensign. OK. Thank you.
    Mr. Faleomavaega. The gentleman from Michigan for 
questions?
    Mr. Kildee. I have no questions at this time, Mr. Chairman.
    Mr. Faleomavaega. Mr. Gibbons?
    Mr. Gibbons. Mr. Culp, in light of the fact that there have 
been a number of questions regarding the time within which this 
application has been either presented or held now or awaiting 
decision, what suggestions would you have for St. Jude's Ranch 
for action they might take to expedite this process, to help it 
along, that you could suggest? Obviously, everybody is here 
waiting for the final decision and outcome and I think it is 
important for you, those of you that have control of this 
process, to enlighten all of us as to this action that might be 
helpful to them.
    Mr. Culp. Mr. Gibbons, I believe the first step under the 
alternative that we have been discussing would be for St. 
Jude's to work with the city or the county to form that 
partnership for this land, to have the city or the county come 
in either with them or on their own for the lease or patent 
under the R&PP Act.
    Mr. Gibbons. Now, once they present that type of a 
partnership to you, will you tell us how long you anticipate it 
would take from the date you receive that application with a 
joint partnership until you make a decision on granting or 
conveying title or leasing the property?
    Mr. Culp. That is where the 90 days would begin, and as I 
indicated to Mr. Ensign a minute ago, we will look at what we 
perhaps could do to shorten that period.
    Mr. Gibbons. Shorten it from the 90 days or complete it 
within that 90-day period?
    Mr. Culp. Complete within the 90 days and look at what 
opportunities there might be to shorten.
    Mr. Gibbons. All right. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Donna?
    Ms. Christian-Green. Thank you, Mr. Chairman.
    Mr. Culp, one of your comments was with regard to the 40 
acres. If this process goes through under the R&PP Act, do you 
still have a concern about the 40 acres?
    Mr. Culp. One of the other alternatives to reduce the cost 
to St. Jude's would be to look at the footprint of the facility 
and see if less than 40 acres would suffice. Now, we have not 
seen a plan for this facility, so I do not know for sure if a 
lesser acreage would work, but that is another alternative to 
reduce the cost and we mentioned that, I think, in the prepared 
statement.
    Ms. Christian-Green. Thank you. No further questions.
    Mr. Faleomavaega. I have just a couple of questions, Mr. 
Culp, and I am sorry we do not have a chart or something to 
show exactly where St. Jude's Ranch is to where the 40 acres 
are. Where in Las Vegas are the proposed 40 acres located? I 
think that might be helpful to the members of the Subcommittee.
    Mr. Culp. It is in the northern part.
    Mr. Faleomavaega. And where is St. Jude's Ranch from the 40 
acres that we are looking at?
    Rev. Ward. The ranch is 25 miles south, in Boulder City.
    Mr. Culp. That is an existing facility.
    Mr. Faleomavaega. Let the other members see. So St. Jude's 
Ranch is how many miles from Las Vegas, Mr. Culp?
    Mr. Culp. It is my understanding it is actually within the 
city boundaries. Las Vegas has unusual boundaries.
    Mr. Ensign. I can answer that question for you.
    Mr. Faleomavaega. Please, for the record.
    Mr. Ensign. Yes. St. Jude's Ranch currently, not the one 
that they want to build, right? They currently operate one out 
by Boulder City, which is outside of the Las Vegas Valley. It 
is out going toward Hoover Dam. This one, the 40 acres, is 
actually very far north, within the valley, but it is very far 
north, past actually really any development.
    Mr. Faleomavaega. OK. Is there development surrounding this 
40 acres in question?
    Mr. Culp. I have actually visited it. It is partly 
developed. It is an area we tend to call a checkerboard, where 
there are some public domain parcels, of which this is one, and 
certainly some homes. It is rather sparsely developed at the 
moment, I would say, but with the growth that is occurring, it 
is pretty clear that this will be an area where the 
metropolitan area is going to expand.
    Mr. Faleomavaega. Is the----
    Mr. Ensign. Mr. Chairman?
    Mr. Faleomavaega. Please.
    Mr. Ensign. By the way, North Las Vegas--this is within 
North Las Vegas and they have signed off on this. They think it 
is consistent. So it is the city of Las Vegas. Everybody, 
basically, the local governments have signed off on this.
    Mr. Faleomavaega. It was mentioned, Mr. Culp, about some 
hazardous materials. Are there hazardous materials on this 
property in question?
    Mr. Culp. We do not know. It is a concern because the BLM 
lands in this general area have from time to time been used as 
a place to dispose of materials. So what we would have to do is 
a site inventory to ascertain if there are or are not. When I 
was there, I certainly did not see drums on the surface or 
anything like that. But it is just part of the process that we 
have to go through, and I certainly did not walk the whole 40 
acres. We sort of did a little windshield survey of it.
    Mr. Faleomavaega. This is not part of the downwind or 
anything of the sort, of dusts coming out of the nuclear 
explosions or anything like that, is there, Mr. Culp?
    Mr. Culp. No. No.
    Mr. Faleomavaega. Or nuclear waste, for that matter?
    Mr. Culp. It is basically a residential, a developing 
residential area.
    Mr. Faleomavaega. Would the BLM be willing to work with the 
Subcommittee to come up with some alternative, since there 
seems to be some concern concerning the provisions of the 
legislation, that can still meet the needs of St. Jude's Ranch?
    Mr. Culp. Certainly we would, Mr. Chairman.
    Mr. Faleomavaega. I think maybe perhaps our next panel 
could give us some more specifics on these areas that some of 
the members of the Subcommittee may want to raise some 
questions. Thank you very much.
    Mr. Faleomavaega. We would like to call on our next panel, 
Father Herbert Ward, President and CEO of St. Jude's Ranch for 
Children, and Jean-Claude Holly, from the National Board of 
Trustees of St. Jude's Ranch for Children, the Business 
Committee. We would like to welcome both of these gentlemen for 
their testimony.
    Mr. Gibbons. Mr. Chairman, I would like to reflect on your 
previous comment that those of us in Nevada are indeed 
concerned that our children are going to glow green from the 
transportation of nuclear waste into our State. We are 
concerned about that, make no mistake about it.
    Mr. Faleomavaega. I would suggest to my good friend from 
Nevada that the 1.2 million citizens of Nevada ought to 
protest. They ought to come out with signs and let the rest of 
the country know that it is not fair that this good State be 
made the dumping ground of our nation. I think it is very 
unfair.
    Mr. Gibbons. And I hope you will join us.
    Mr. Faleomavaega. I would be more than happy to.
    Because there is a vote on the floor pending, if we could 
just recess for about 10 minutes so that our good friends will 
return for more questioning and the testimony. Father Ward, is 
that OK?
    Rev. Ward. Yes.
    Mr. Faleomavaega. Thank you.
    [Recess.]
    Mr. Ensign. [presiding.] Just for the record, Mr. Redmond 
has a statement on H.R. 2098 that he would like to submit for 
the record.
    [The prepared statement of Mr. Redmond follows:]

 Statement of Hon. Bill Redmond, a Representative in Congress from the 
                          State of New Mexico

    Thank you, Mr. Chairman for holding a hearing on H.R.2098, 
a bill to establish the National Cave and Karst Research 
Institute, which would be located near Carlsbad Caverns 
National Park, New Mexico. I appreciate the opportunity to 
further show my support for this bill, and for my colleagues, 
Senator Jeff Bingaman, and Representative Joe Skeen.
    In her statement before the Senate Energy and Natural 
Resources Committee on May 21, 1997, Katherine Stevenson, 
Associate Director for Cultural Resources Stewardship and 
Partnerships at the National Park Service, said that, ``Cave 
and karst systems are vital to humankind in many ways.'' The 
National Geographic Society has identified the protection and 
management of water resources as one of the major issues facing 
world society in the 21st century.
    Most of the United States' freshwater resources consists of 
groundwater. Of this groundwater, nearly 25 percent is located 
in cave and karst regions, similar to those in Carlsbad, New 
Mexico. Establishment of the institute will take a significant 
step towards finding solutions for the unique problems that 
will be faced in the 21st century as our nation's population 
expands and our natural resources become more critical.
    H.R. 2098 directs the Secretary of the Interior to complete 
the process which was begun a decade ago when the Federal Cave 
Resources Protection Act became law. The study of the 
feasibility of establishing a centralized cave and karst 
research facility was directed in 1990 and has been completed 
since 1994. Now it's time to make this institute a reality. 
H.R. 2098 is the culmination of efforts by all members of the 
New Mexico delegation who have served in the past ten years. I 
am proud that I was able to be a part of the continuation of 
this effort.
    Thank you again, Mr. Chairman, for your efforts on behalf 
of New Mexico. I look forward to working with you in the 
future.

    Mr. Ensign. I would like to welcome the next panel. We have 
Father Ward, President and CEO for St. Jude's Ranch for 
Children, and Jean-Claude Holly, National Board of Trustees of 
St. Jude's Ranch for Children, Business Committee. I welcome 
both of you and look forward to your testimony.

  STATEMENT OF FATHER HERBERT WARD, JR., PRESIDENT AND CHIEF 
        EXECUTIVE OFFICER, ST. JUDE'S RANCH FOR CHILDREN

    Rev. Ward. Thank you, Mr. Ensign. Thank you for the 
opportunity to speak on behalf of St. Jude's Ranch for Children 
and the Good Shepherd Campus and H.R. 2989.
    The Congress, by recent reforms in welfare legislation, has 
challenged the private sector and local service organizations 
to assume a greater share in providing for welfare needs. St. 
Jude's Ranch for Children is prepared to accept your challenge.
    Thirty years ago, the municipal government of Boulder City, 
Nevada, conveyed 40 acres of desert land to begin St. Jude's as 
a facility for the care of abused, battered, and neglected 
children. Today, we are asking the Congress to do the same and 
convey to St. Jude's 40 acres of desert land north of Las Vegas 
so we can rebuild the Good Shepherd Campus for residential 
treatment of adjudicated girls. By the way, we are not 
dependent on government sources for operating expenses at the 
three campuses we presently run in Nevada and Texas, nor will 
we depend on Federal funds to operate the Good Shepherd campus.
    Several years ago, Ford Motor Company learned of our 
success rate in breaking multi-generational welfare dependency 
through our learn-to-earn program and began to support our 
greeting card recycling project, which teaches workfare, not 
welfare. Recently, Ford pledged us a $200,000 seed money grant 
to develop private sources of operational funding and gave St. 
Jude's a challenge to be in 25 facilities by the year 2006. 
This infomercial film which will go out nationwide in a 
marketing program to corporations features Jason Priestly of 
``90210,'' Ed McMahon, Alex Trautman, Chairman of the Board of 
Ford Motor Company, and Claudine Williams, Chairman of the 
Board of Harris, and other leaders. This will be part of our 
fundraising. The new Good Shepherd campus for girls will be 
just one of those facilities which Ford has challenged us to 
establish.
    From 1989 to 1991, at the request of the Nevada State 
Department of Human Resources, St. Jude's attempted to keep the 
old Good Shepherd program going after the Roman Catholic 
sisters were forced to abandon the work due to the declining 
number of nuns. We did a good job. The therapy department we 
introduced into this locked facility began intensive work with 
the root causes behind the girls' delinquent behaviors. We 
discovered each of these adjudicated delinquent youngsters had 
a history of sexual molest and/or physical and psychological 
abuse.
    As we treated the fractured self-images of each child, they 
began to improve. During our administration, 100 percent of the 
girls who took the State educational proficiency test passed 
it, a record unequaled in Nevada in either public or private 
schools. Unfortunately, the good sisters had deferred 
maintenance on their buildings for 26 years. They were 
grandfathered in, or should I say, grandsistered in with this 
$750,000 asbestos abatement problem and the violations of later 
more stringent building codes.
    Our board decided, therefore, to let the lease lapse and 
seek other opportunities of service in the State of Texas and 
to seek other land to build the Good Shepherd. We are now ready 
to rebuild that Good Shepherd campus and the city of Las Vegas 
wants that other piece of property that we had contracted for, 
hence my visit with you today.
    By the way, St. Jude's is truly a non-sectarian 
organization. While I happen to be an Episcopal or Anglican 
priest, the president of our board when we were approached by 
Nevada Human Resources to assume running the Good Shepherd was 
Dr. Faye Ulstrum Genecaro, a Mormon. The board president while 
we operated the program was Mrs. Lorraine Hunt, a Roman 
Catholic. And the board president when we gave up our lease was 
Mr. Hal Ober, who is Jewish. I hope you will help us meet the 
Congressional challenge to shoulder more of the welfare load.
    In conclusion, the municipal government of Boulder City 
today is proud of their contribution 30 years ago which helped 
establish St. Jude's. Thirty years from now, I believe that the 
Congress in session then will likewise be proud of your 
foresight in establishing this partnership. Thank you again for 
your kindness in allowing me to speak to you.
    Mr. Ensign. Thank you.
    [The prepared statement of Rev. Ward may be found at end of 
hearing.]
    Mr. Ensign. Mr. Holly?

 STATEMENT OF JEAN-CLAUDE HOLLY, NATIONAL BOARD OF TRUSTEES OF 
       ST. JUDE'S RANCH FOR CHILDREN, BUSINESS COMMITTEE

    Mr. Holly. Thank you. Good morning, Mr. Chairman, and 
members of the Subcommittee. My name is Jean-Claude Holly, Jr., 
also known as John. I am a graduate alumnus, a board member, 
and a business committee member of St. Jude's Ranch for 
Children.
    Let me begin by saying thank you for allowing me to 
participate in this hearing regarding a matter that is a 
personal life experience for me. Twenty-one-plus years ago, I 
was placed at St. Jude's Ranch because I felt and believed that 
my family and society had given up on me, and to be candid with 
you, I had decided to give up on them and was on the course of 
doing myself harm and giving up on myself. Fortunately for me, 
St. Jude's and Father Ward were there to give me a new start, a 
place to rest, heal, and the resources that I needed to develop 
a productive future for myself.
    St. Jude's was established in 1966 when the city of Boulder 
City, Nevada, decided to invest in the decision of Father Jack 
Adams and four Anglican nuns from England and granted them 40 
acres that is now the national headquarters for this operation.
    Had that not been the case, I seriously doubt that I would 
be before your Committee today and participating in a process 
which most of our citizens seem to have a lack of faith in.
    Also, as you can see, the St. Jude's program is a 
continuous process that does not end or terminate when a family 
member leaves or graduates from our home. It continues at 
various levels.
    Therefore, I would like to state it is an honor and a 
privilege for me to come before this body of decisionmakers and 
to boldly ask you all to invest in the faceless, nameless 
children who are out there at this very minute like I was. Give 
them the same opportunity to also benefit from the St. Jude's 
experience and program and help them to become productive, tax-
paying members of our societies, as many of our graduates are 
out there at this present time.
    You can do this by voting yes on H.R. 2989 today, and who 
knows what the future return on this investment will yield in 
the foreseeable future. My bias allows me to believe that the 
unimaginable, like today, is very realistic.
    I thank you all again for your invitation, time, and 
attention, and I am at your disposal to answer your concerns 
regarding this matter. Thank you.
    [The prepared statement of Mr. Holly may be found at end of 
hearing.]
    Mr. Ensign. Thank you both for wonderful testimony.
    I want to start with you, John. Your testimony was moving, 
and obviously, listening to you and looking at you, your life 
was turned around. Can you just tell us a little more? First of 
all, how old were you? Just maybe tell some of the things that 
went on to change your life at St. Jude's.
    Mr. Holly. I came to St. Jude's either at the end of 
October or beginning of November 1977. I was 13 years old, 
going into the eighth grade. I wound up in Las Vegas when I was 
shipped to my father at the last minute to him. My grandmother, 
his mother, was raising me and as a 13-year-old child with a 
lot of anger from past mental abuse and physical abuse, I just 
was not interested in people who wanted me to be grateful just 
to be in their home.
    I was ungrateful, I was unappreciative, I was not cute, I 
was not smart, I was not as successful as some other of the 
family members and I was not going to let anyone put me down. I 
would stick up for myself and I would manifest that in ways 
that made people think I would become a delinquent or a 
criminal. I did not do anything that was violent, but I would 
not let anyone compromise my safety, or put me at risk.
    When I got to Las Vegas, my father decided, well, this is 
not something he wanted to take on. He was starting a new life 
for himself and he wanted a new start. I came to the conclusion 
I did not want a life with him, either.
    Fortunately for me, I was placed at a halfway house and he 
came there and we had an altercation. I was placed at the 
juvenile detention in Las Vegas. I was assessed there for about 
30 to 40 days. They decided that there was nothing in my 
background or in my behavior that would deem for me to be kept 
at a State home or what not, so I was taken out to St. Jude's 
for a visit, interviewed with Father Ward and the sisters 
there. My father and the case manager that was there with me 
interviewed and it was decided that I would be placed at St. 
Jude's.
    That is the best thing that has happened to me for the 
simple fact that it gave me a fresh start from the perspective 
I had no baggage to answer to anyone about anything. No one 
knew why I was there. I did not know why anyone else was there. 
So there was nothing to live up or down to.
    Being away from the verbal abuse and physical abuse gave me 
a chance to concentrate on my schoolwork, which had lapsed. I 
was in and out of school, thrown out of school for either 
behavioral problem or did not have the right clothes, did not 
smell right, just disruptive to the classroom, and my education 
was severely limited. I was put in remedial courses. I had 
assistance from the ranch staff. I had assistance from Father 
Ward's wife-to-be. I had assistance from his father-in-law to 
come up to speed with my education.
    While I was at the ranch, I finally was allowed to play 
with other children, which other families did not allow me to 
play with. I was the kid that you stayed away from. You did not 
associate with me. As soon as I got to the ranch, that all 
changed and I was playing with everyone. I was just another 
kid.
    Through my course there, I worked my way through school. I 
have achieved some success on the athletic map. I went on to 
the military, pursued that for 4 years in the Marine Corps, was 
honorably discharged, decided that I did not want to do 
warehousing for the rest of my life and worked my way through 
school. I graduated as an accountant in 1995. I moved to 
Raleigh, North Carolina, after that because I liked the 
lifestyle down there.
    Mr. Ensign. Thank you very much.
    Father Ward, John's testimony is exactly what it is, 
testimony to how a life can be changed. I was very impressed 
when you said that 100 percent of the girls had passed the GED.
    Rev. Ward. During the 2 years that we ran the program 
there, we emphasized a lot of education and what we discovered, 
of course, was that all of the girls there had some sort of 
either sexual molest or physical abuse in their background. 
While they were sent to St. Jude's Good Shepherd because of 
criminal behavior, being adjudicated delinquent, the background 
was so sordid that we had to address that first, and by killing 
the root problem through our therapy program, through Dr. 
Elizabeth Blake and her work, we found that the leaves of the 
tree began to disappear, the petty prostitution, the drug 
abuse, the alcoholism.
    I can give you one illustration. We started a program which 
was called secondary virginity because so many of the girls had 
been prostitutes and we said that when you make a decision in 
your life that you want to be pure, you are pure at that 
moment. Though your sins be scarlet, they shall be white as 
snow. It began to work in a very marvelous way.
    We had one girl who graduated from the program and called 
the social worker to say she would like to be picked up at a 
local 7-Eleven, and the social worker went to pick her up and 
she looked like she had been hit by a Mack truck. She was black 
and blue. She was bleeding from her lip and the social worker 
wanted to take her to the hospital. She said, ``No, I just need 
to talk to you.''
    She said, ``You know in my case history that my step-
father, my mother's current boyfriend, has been sexually 
abusing me since I was 13, and after you told me that I could 
say no and I went through the program at St. Jude's,'' she 
said, ``I began to feel good. I was returned home and he came 
to my bedroom the first day that I was there and said, `OK, put 
out.' '' And she said, ``I told him, no, I do not have to. I do 
not have to do what you told me to do. This is wrong and I am 
not going to.''
    And she said, ``He continued to threaten me for several 
days and finally said, ``if you do not, I am going to beat the 
blank out of you,'' and she said, ``I told him know and he did 
beat the blank out of me.'' She said, ``I hurt. I hurt all 
over, but inside, I feel good.'' Now, that is the thing that 
has to change, is inside. But once it does change inside, then 
we can see the other things happening.
    So the 100 percent has to do with the educational testing, 
because what we found also in our studies is that children who 
have low intelligence tend to accept the fact that this is just 
the way the world is, but it is the youngsters with higher 
intelligence who rebel against the unjustness of what is going 
on. So once we freed them of worrying about who they are--I am 
no good, I am worthless, it must be my fault--and they begin to 
concentrate on their studies, at that particular moment, they 
begin to change.
    Through our career opportunities fund, we will match dollar 
for dollar any child that wants to go to college. We have one 
girl at present who is a second year student at Harvard, 
another girl who is a second year student at Dillard 
University. They came, of course, from the St. Jude's campus, 
not from the Good Shepherd campus.
    But we emphasize that and that is what caused Ford Motor 
Company to want to back us, because they see that if we can get 
this program out across the Nation in other spots, that we 
could begin to set examples and standards that can help us turn 
this country around.
    Mr. Ensign. I thank you for that. The reason I wanted to 
hear the personal stories before I asked a couple of questions 
on the policy matters is that when you put a face and a story, 
it can say it so much more powerfully than quoting statistics 
and quoting whatever programs. I can tell you, having been up 
here and listened to statistic after statistic, especially 
being on the Ways and Means Committee, also, and going through 
welfare reform, you just see what a disaster a lot of those 
things are in our country and it is a great example of what you 
are doing and why I believe so strongly in the bill that we 
want to provide you every opportunity to do what you are doing.
    Just one last thing, and that is the asbestos that closed 
Good Shepherd in the first place. Obviously, we have had to 
spend a ton of money in southern Nevada, as schools all over 
the country have. Just maybe your comments. It seems 
appropriate that if the Federal Government shut you down, it 
would be nice to see the Federal Government give you a start on 
the new campus and out of the dust of asbestos and the 
crumbling of the old building, it would be nice to see come out 
something much greater than we could have ever anticipated with 
the old campus.
    Rev. Ward. John, I think it is a partnership. It is a 
partnership between the public and the private sectors, and in 
the long run, it is going to really help the public sector 
because, as John mentioned, we are creating taxpayers. One of 
the things that is so exciting is that the young man who gave 
me the idea of the learn-to-earn program, Pete Formica, has 
come back as a house parent, and if I can just have 2 minutes 
to tell his story, because I could never motivate him when he 
was a child. I could not get him interested in anything. I 
tried everything I could think of. I said, you are an Italian. 
Italians are hard workers. But I say that to the children with 
German names or any name that I have got. I say, they are good 
workers. It did not phase him.
    Finally, I said, ``Pete, when you grow up, you are going to 
want to get married and have kids. Who is going to take care of 
them?'' And without even thinking, he said, ``The government.'' 
That was the wrong thing to say to me, because I grew up in the 
1950's and 1960's when John Kennedy said, ``Ask not what your 
country can do for you. Ask what you can do for your country.'' 
I really believe that we are to be givers rather than takers. 
Certainly, there are people in this country who are disabled 
that need welfare, but an able-bodied person really needs to be 
motivated to work.
    At any rate, Pete called me about a year ago to tell me 
that his 401(k) had reached a certain level that he could 
retire actually, and here he is in his mid-30's, and that he 
had bought this property and he and Michelle figured, they had 
talked that they could roll it over into their IRA and this, 
that, and the other. I mean, he was going on and on and on. You 
talk about statistics, that is what he was doing. I said, 
``Pete, get an accountant. Talk to an accountant. Do not talk 
to me. I do not understand this.''
    But we talked for a few more minutes, and then about 2 
months later, he called me and he said, ``Pops, you know the 
last time we were talking, you said you need house parents at 
St. Jude's.'' And he said, ``So Michelle and I have been 
praying about it and we believe the Lord is calling us to be 
house parents at St. Jude's.'' And I said, ``Pete, I cannot 
afford you. I know how much money you make. I know how much 
money Michelle makes. We only pay a fraction of what you earn 
right now.'' And he said, ``Pops, it is not about money. It is 
pay-back time. It is time I pay back the good Lord for what he 
did for me at St. Jude's.'' This is what keeps me going there, 
because it really is doing a good job.
    Mr. Ensign. I want to thank you for that. I just wish that 
there were a lot more members of the Subcommittee here to be 
able to hear these testimonies.
    I will turn it over to you, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Father Ward, thank you for coming, and Mr. Holly, I do not 
think I need to say any more but commend you for your testimony 
and the example that you have set not only for your peers but 
what St. Jude's has done for you.
    I have just a couple of questions for the record so that 
perhaps if other members want to look at it, they can get a 
better sense of what we are doing here. What is the total 
enrollment at St. Jude's of the young people?
    Rev. Ward. The total at our three campuses--we have two in 
Texas--last year, we cared for 220 children. We are going into 
a major expansion on the Boulder City campus to increase from 
52 beds to 104 beds this coming year, and then, of course, with 
the Ford Motor Company, if we go into 25 facilities by the year 
2006, we would be taking care of approximately 4,000 children.
    Mr. Faleomavaega. So for this proposed project, especially 
within the Las Vegas City proper, if this facility is to be 
built on this 40-acre parcel of land, you are looking at how 
many children?
    Rev. Ward. Between 104 and 120. It depends. We did have 
this other property that was under consideration, but the city 
of Las Vegas wants it because they have land right next to it, 
the 40 acres right next to it, and they are building a park 
there and as part of their facility, they want this property. 
So that is where we got started talking with the city of Las 
Vegas and the exchange of this property for this property. Then 
finally, it seemed that it would be just much easier to come 
and ask if it could be donated as the Boulder City Municipal 
Council donated to us 30 years ago for $1, so that we could get 
on with the business rather than just keep dragging it on and 
on and on over these years.
    Mr. Faleomavaega. That is what I was going to ask in my 
next question, and I am sure how closely you have always worked 
together with the city and county and State officials. I just 
wanted to make it clear for the record, you have considered all 
other options?
    Rev. Ward. Yes, sir.
    Mr. Faleomavaega. And the city, as well as the State, 
really have no other public lands available for this purpose?
    Rev. Ward. That is correct.
    Mr. Faleomavaega. And this is the reason why we now have 
this legislation, hopefully, that the BLM through the Secretary 
of the Interior will convey this 40 acres that is needed for 
the project.
    Rev. Ward. Yes, sir.
    Mr. Faleomavaega. Mr. Culp had mentioned earlier, also, 
suggesting that you do not want to treat just the young ladies. 
Is this specifically the project that you are seeking?
    Rev. Ward. Yes, sir. Actually, the continuum of care 
philosophy that we are developing is based upon the fact that 
certain children need certain therapeutic modalities. Girls who 
have been raped and who have served as prostitutes probably do 
not need to be around teenage boys with raging hormones, and 
so, therefore, it is much easier for us to address their 
particular needs in an all-girl setting.
    The facility in Boulder City is co-ed. One of the 
facilities in Texas that we are looking at acquiring is a boys' 
facility. Each child is an individual and what we try to do is 
to address the individual needs. When we did run the Good 
Shepherd for those 2 years, we found that a couple of those 
girls really needed to be in a more open setting. We moved them 
out to Boulder City. We found one girl that was placed with us. 
After she was there, we began to discover through the 
therapeutic process that she needed a closed, locked-down 
facility. We moved her to Good Shepherd.
    The importance of that is that we are not turning them out. 
They are still part of the St. Jude's family. There is no more 
rejection, and that is the one thing with children who have 
been abused. You have to be careful about further rejection. If 
you read the case history of Charles Manson, you will find that 
he was in 18 different foster homes before he was 17 years old, 
or foster homes and placements, and he says in that biography 
that he was going to get even with society because of 
rejection. So what we have to do is through unconditional love 
and unconditional acceptance of them, bring the healing process 
to a point where they can begin to heal themselves.
    Mr. Faleomavaega. So your facility in Boulder City is co-
ed?
    Rev. Ward. Yes, sir.
    Mr. Faleomavaega. Do you have another facility where it is 
predominately just young males?
    Rev. Ward. No. There is a place in Texas that we are 
looking at taking over because it is bankrupt right now.
    Mr. Faleomavaega. I see.
    Rev. Ward. A lot of facilities, as you know, were dependent 
upon government money, and with the welfare reform Act a couple 
of years ago, they are having a difficult time operating. We 
went off the welfare system, as I said, when I first got there 
because I wanted to teach the children to be self-reliant and 
we have developed our own sources of funding. So, consequently, 
we are in a better shape right now financially than other 
facilities.
    Mr. Faleomavaega. I do not have any questions whatsoever in 
terms of the validity of what is requested here by my good 
friend in the proposed bill to provide this kind of assistance 
really needed for such a worthy cause as St. Jude's, but I 
wanted to ask, do you think the Girl Scouts might also be 
asking for lands, because they also----
    Rev. Ward. I do not know. I do not serve on their board of 
trustees, so I do not----
    Mr. Faleomavaega. I think that seems to be the concerns 
that some of the members may have. Like I said, I would be the 
first one to want to do this and to give assistance to St. 
Jude's and for a very worthy endeavor here, and I suppose 
because we have so many thousands and thousands of acres in 
Nevada, what is 40 acres that could be given to save human 
lives. I just wanted to share that concern with you, but Father 
Ward and Mr. Holly, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Holly. Can I just add something to that concern about 
will the Girl Scouts come or somebody else will come?
    Mr. Faleomavaega. Please.
    Mr. Holly. That is possible, but do they have the track 
record that St. Jude's has? Can they take someone who may 
become a tax liability and turn them into a tax producer? That 
is where the vision comes in and that is where you, as leaders, 
are different than bureaucrats who have to dot the ``i''s and 
cross the ``t''s. You are the visionary people that can make it 
happen. Like I said, who knows in the near future or the 
foreseeable future what will that result in. Thank you.
    Mr. Faleomavaega. I want to thank Mr. Holly for that 
statement, Mr. Chairman, and I think it would also be helpful 
for the record. I know there is a good-sized percentage of 
Federal lands as part of the State of Nevada. I just cannot 
believe that 40 acres out of 100,000, or----
    Mr. Ensign. Actually, 87 percent of our State is owned by 
the Federal Government. And also, we have to look at this land 
to the Federal Government would be totally worthless if it was 
not for the local people providing roads, providing phone 
service, power, and the water, which we pay for because we are 
one of the few places in the West that does not get the Federal 
help on the water projects.
    That was one of our arguments for our lands bill last year, 
is that it is the local people who are bringing value to this 
land, because most of the land in Nevada is, as far as the 
marketplace, totally worthless. This land here would be totally 
worthless if it was not for the local people developing around 
it, and that is the only reason it is recognized as even an 
asset to the Federal Government.
    So it would seem to me, because it just kind of fell in the 
Federal Government's lap because it did not have any rainfall--
that is the reason that nobody wanted the land in the first 
place--and because local people have brought and made the land 
worth something, it does seem that this is the type of thing 
that the Federal Government should be doing, and if it is St. 
Jude's, great.
    If it is somebody else with a proven track record, I do not 
think this is a bad precedent. I think this is something we 
should be looking at, because we look at all of the money that 
we have spent in public housing and how we have destroyed 
people and made crack houses out of public housing. We look at 
all of the other things that we invest our money in and we can 
look at some and hear the stories and see the track record of 
something like St. Jude's. We should not even be questioning. 
Well, we should always question, but that question should come 
up with an answer. The answer is, yes, that this is the right 
thing to do.
    Mr. Faleomavaega. Mr. Chairman, I think what Mr. Holly 
stated earlier was well taken. Look at the record and that 
speaks for itself.
    Thank you, Mr. Chairman.
    Mr. Ensign. Thank you, and I want to thank both of you for 
your splendid testimony and for making the trip out here. Mr. 
Holly, you have such a valuable role for young people because 
somebody who has been there has such moral authority for those 
young people that are going through what you went through that 
I applaud you for giving back because somebody gave to you, and 
thank you, Father Ward, for your service.
    Rev. Ward. Thank you.
    Mr. Holly. Thank you for having us.
    Mr. Ensign. The meeting is adjourned.
    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of Michael A. Soukup, Associate Director for Natural Resource 
   Stewardship and Science, National Park Service, Department of the 
                                Interior

    Mr. Chairman, I appreciate the opportunity to provide the 
Subcommittee with the views of the National Park Service on 
H.R. 2098, a bill to establish the National Cave and Karst 
Research Institute. A hearing before the Senate Subcommittee 
was held on the companion legislation, S. 231 last May. Also, 
similar legislation was introduced and a hearing was held 
before the Senate Subcommittee during the 104th Congress. The 
National Park Service supports this legislation; however, 
funding has not been requested in the Administration's budget 
request. For the Institute to become a reality we need two 
things--funding provided by Congress for the NPS share, and the 
public/private partners must match the Federal appropriations. 
Federal funding for this proposal would be contingent upon NPS 
budget constraints and Administration priorities.
    If enacted, H.R. 2098 would establish a National Cave and 
Karst Research Institute for the purpose of furthering the 
science of speleology, encouraging public education in the 
field, and promoting and developing environmentally sound and 
sustainable resource management practices. The Institute would 
be located near Carlsbad Caverns National Park. Management and 
operation of the Institute would be based on a partnership 
between the National Park Service and a public or private 
agency selected by the Secretary.
    Cave and karst systems are vital to humankind in many ways. 
The protection and management of water resources have been 
identified as major issues facing the planet as we enter the 
21st century. The majority of America's freshwater resources 
exist in groundwater, and a full 25 percent of groundwater is 
in cave and karst regions. Caves also serve as rich storehouses 
of information about natural resources, human history, 
evolution, and global climate change--not to mention such 
current concerns as waste disposal, petroleum recovery, and 
biomedical investigations.
    Congress created a major impetus for America's involvement 
in cave and karst protection and management by passing the 
landmark Federal Cave Resources Protection Act of 1988. This 
Act, among other things, directed the Secretaries of the 
Interior and Agriculture to inventory and list significant 
caves on Federal lands. The nationwide assessment of 
significant federally owned caves began in 1994. This action 
has added greatly to the number of known caves on Federal land, 
and increased the impetus for cave management and research. 
Federal land managers have since developed a heightened 
awareness of the management needs of the cave and karst 
resources on these lands and of their growing needs for 
assistance in inventorying and classifying their cave and karst 
resources. It is also evident that in order to succeed in this 
effort, the private sector as well as other public agencies 
need to be part of the project. We will need to develop 
partnerships which will bring funding, as well as research and 
program content, to the project.
    The foundation for H.R. 2098 and S. 231 stem from the study 
prepared by the National Park Service in response to Public Law 
101-578 (November 15, 1990). In that law, Congress directed the 
Secretary of the Interior, acting through the Director of the 
National Park Service, to establish and administer a Cave 
Research Program and to prepare a study that examines the 
feasibility of establishing a centralized National Cave and 
Karst Research Institute.
    The NPS study was completed in December 1994. The study 
recommended that the Institute be jointly administered by the 
National Park Service and another entity. Congress has 
identified the National Park Service as project lead since it 
manages over 60 park units containing significant cave 
resources. It has had a Cave and Karst Research Program in 
place since March 1991, and it already has used an appropriate 
general cooperative research model, based on cooperative 
agreements. The National Park Service would have ultimate 
responsibility for the Institute, and would retain indirect 
control over its activities and programs. An academic entity 
would plan, coordinate, and administer the Institute and its 
programs.
    The location that the study recommended is a local 
community (rather than a National Park Service unit) that 
possesses significant cave resources, is easily accessible to 
researchers, students, and other visitors, is located near the 
academic entity with which it is associated, and is large 
enough to offer a favorable quality of life in order to attract 
and retain high-quality employees and their families. As 
specifically directed by Public Law 101-578, the study focused 
on locating the Institute near the region surrounding Carlsbad 
Caverns National Park. The Carlsbad location was identified by 
the study because of the documented strong local community and 
political support, and the numerous and diverse cave and karst 
resources found throughout the region.
    Cost estimates were prepared for our testimony last May. It 
is estimated that the cost for the Institute during the first 5 
years, if space for the Institute were donated to the NPS, 
would exceed $1.2 million for operating and capital expenses 
alone over the five-year period. Since New Mexico State 
University is considering housing the Institute at its Carlsbad 
Environmental Monitoring and Research Center during the first 5 
years, it is anticipated that a permanent facility would need 
to be built by the sixth year of operation. The estimated 
construction cost of the Institute exceeds $1.2 million.
    It is critical in times of decreasing budgets and resources 
that the dictates of this legislation be accomplished jointly--
between the National Park Service and a designated partner in 
this venture, such as the State of New Mexico, New Mexico State 
University, or private entities. Technical cooperators for 
research projects could include organizations such as the Karst 
Waters Institute, the National Speleological Society, the Cave 
Research Foundation, and the American Cave Conservation 
Association as well as state and Federal science agencies as 
appropriate.
    All funds and efforts of the NPS must be matched at least 
equally and responsibility for the success of the project must 
be shared. We would strongly recommend a change in bill 
language to emphasize this position. In ssection 4 (c) and (e) 
as well as section 5 (a) we would suggest changing the 
Secretary ``may'' to the Secretary ``shall.'' This would 
reaffirm that the commitment to the project is the 
responsibility of all parties, and its success depends 
completely on cooperative efforts. Without cooperation, 
existing NPS projects and programs would be jeopardized.
    This concludes my prepared remarks concerning H.R. 2098, 
Mr. Chairman. I would be pleased to respond to any questions 
you may have.
                                ------                                


 Statement of Pete Culp, Assistant Director, Bureau of Land Management

    Thank you for the opportunity to testify on H.R. 2989, a 
bill which provides for the conveyance of approximately 40 
acres of public land in Las Vegas, Nevada to the St. Judes 
Ranch for Children. The bill would require the Bureau of Land 
Management (BLM) to convey the lands to St. Judes with a 
reversionary clause should the lands not be used for the 
purpose of residential care for adjudicated girls. The BLM 
would be required not only to convey the lands but to conduct 
all required environmental and hazardous materials inventories 
and clearances within thirty days of passage of this 
legislation. The BLM does not support this Bill as written.

BACKGROUND

    Before discussing our comments on the bill, I would like to 
offer some background information on the proposed St. Judes 
facility and the Recreation and Public Purposes (R&PP) Act. The 
R&PP Act was passed in 1926, and subsequently amended in 1954, 
in order to make public lands available for campgrounds, 
schools, fire stations, parks, fairgrounds, and other public 
uses. Applicants include private non-profit organizations and 
governmental entities. They may apply for the least amount of 
land required for the efficient operation of the project 
involved. The lands are used subject to a reversionary clause 
where the lands revert to the United States if the use or the 
entity holding the lands changes. These lands are either leased 
or conveyed based on a pricing structure generally as follows:

        1. Lands needed for recreational uses can be conveyed to 
        governmental entities at no cost. These uses include parks and 
        other recreational facilities.
        2. Lands needed for governmental purposes to serve the general 
        public for other than recreation can be conveyed at $10 per 
        acre or leased at $2 per acre per year. These include 
        education, fire, police, public health, courthouses and other 
        similar State, county and community facilities.
        3. Lands needed by non-profit organizations for any 
        unrestricted use or by governmental entities for uses other 
        than those described above are leased or conveyed at 50 percent 
        of market value. These uses include cemeteries, museums, 
        fairgrounds and for government entities, any other facilities 
        that are publicly supported but not essential to government 
        administration.
        4. If use is restricted on any of the lands described above, 
        the lease or conveyance is based on 90 percent of market value. 
        Such restrictions would include uses limited to a certain group 
        of people or membership. An example would be a cemetery open 
        only to members of a certain church.
    I describe the R&PP Act to you because the use described in H.R. 
2989 is typical of those authorized under this authority. In fact, St. 
Judes has an R&PP lease to develop public lands for the purposes 
described in H.R. 2989. On November 11, 1994, St. Judes was issued an 
R&PP lease for 40-acres, north of the Las Vegas metropolitan area, 
abutting U.S. Highway 95, for the purpose of constructing the Home of 
the Good Shepherd. The facility was to shelter and educate troubled 
adolescent girls that have been made wards of the State of Nevada. St. 
Judes has paid one year of rental fees. No rental fee was paid for 
1997. The BLM suspended lease payment while determining the Beltway 
alignment. The Beltway is a major highway project needed to move 
traffic around the city center. Alignment no longer affects the lease 
site; however, the rental payment remains in arrears. The Fair Market 
Value, after a 50 percent reduction in accordance with the R&PP pricing 
structure, results in an annual lease rental of $54,000. St. Judes 
feels that it cannot afford this lease payment along with the 
development costs.
    In an effort to contain development costs, St. Judes looked for a 
site closer to utilities. It has found another site on public lands 
that will meet its needs; however, the public lands closer to utilities 
are more costly than the original lease site. The lands it is 
interested in are the lands contained in H.R. 2989. St. Judes has 
submitted a relinquishment of its existing R&PP lease and requested 
that payment of the back rental be waived.

GENERAL COMMENTS

    Passage of H.R. 2989 would set an unwise precedent for ``no cost'' 
conveyance of land in the Las Vegas Valley. The R&PP authority has been 
used by the BLM to provide lands at a reduced price to governmental and 
non-profit entities for 72 years. In the Las Vegas area, BLM has used 
this authority successfully by issuing 78 leases and 79 patents. The 
Las Vegas Field Office currently has approximately 195 R&PP 
applications pending, approximately 30 of those from other non-profit 
groups for a variety of similar properties and similar land uses. These 
new proposals are from groups, such as the Girl Scouts, Boy Scouts, 
animal shelters, and churches. Those groups with current leases and 
conveyances, along with these individuals with R&PP applications 
pending, could as readily claim a similar financial hardship as St. 
Judes has done. For these reasons the Administration does not support 
the bill. We recommend processing this transaction subject to the 
administrative processes that all other non-profit entities have had to 
follow, and will have to follow in developing qualifying R&PP 
facilities in the future.

SPECIFIC COMMENTS

    Although we do not support this legislation, there are several 
recommended changes that would be needed if the legislation is enacted. 
This legislation would require the conveyance of 40 acres of public 
lands, which seems excessive to accommodate facilities to care for 102 
children. We would recommend that a smaller amount of land be 
identified for this purpose even if a cadastral land survey is 
required. A cadastral survey is required to further divide this 
property. With the high value of these lands (this 40 acres is likely 
to be worth $1 million), it is in the public interest to convey the 
least amount of land needed and to pay the cost of the survey.
    The bill intermingles the terms, ``children'' and ``adjudicated 
girls.'' With a reversionary clause that allows for use only by 
adjudicated girls, there may be a risk of violation of the reversionary 
clause if boys are ever allowed to use the facility. Perhaps the best 
way to resolve this conflict is to change terminology throughout the 
bill to either reference ``children'' or ``adjudicated girls,'' not 
both.
    Section 2. (a) would require the Secretary to complete the 
environmental studies identified in subsection (c) and offer to convey 
title within 30 days after a request by St. Judes. The process cannot 
be completed in 30 days. The BLM needs at least 90 days to process this 
title conveyance.
    Section 2. (c) would require environmental studies which include a 
survey for the presence of hazardous materials to determine if the 
facility for adjudicated girls is a compatible use of the land 
described in subsection (b). The bill requires conveyance within 30 
days of passage, but does not instruct BLM what to do if the lands were 
found incompatible with this use. There is a built-in conflict in the 
bill. Consideration should be given to allowing full analysis of the 
lands within a reasonable time frame and the opportunity for the 
Department to refuse if the use is inappropriate.
    Section 2. (d) provides for a reversionary interest to be retained 
by the United States. This section is vague. We suggest that a 
development or management plan be submitted so that BLM knows the 
intended use of the property. It is difficult to divest property 
without a defined development or management plan. Additionally, we 
recommend the reverser clause used for conveyances pursuant to the R&PP 
Act or some limitation on future development be included in the 
legislation.

CONCLUSION

    It appears that the motivation for this bill is to create a 
mechanism by which St. Judes can quickly secure public lands, at no 
cost, for use as a children's/adjudicated girl's facility. Because 
there are hundreds of other past and present non-profit groups in the 
same situation, this legislation seems to offer a template for all 
other groups to follow or to feel excludedfrom. The fair approach is to 
process this action using current authorities (the R&PP Act) which 
involves no legislation. We would certainly be willing to work with the 
Subcommittee to explore other options that might meet the needs of St. 
Judes.
    This concludes my statement. I will be glad to answer any questions 
you may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6853.026
                                 

</pre></body></html>
